Press Release  Office of the Inspector General | Smithsonian
Skip navigation
Explore
About Us
Mission & Vision
Our History
Encyclopedia Smithsonian
Art & Design
History & Culture
Science & Technology
Visit
Overview
Hours
Maps & Directions
Floor Plans
Dining
Visiting with Kids
Visiting with Groups
Get Involved
Overview
Volunteer
Giving
Membership
Docents
Citizen Science
Host an Event
Connect
Overview
Blogs
Facebook
Flickr
Google+
Instagram
Mobile
Pinterest
Podcasts
Tumblr
Twitter
YouTube
Virtual World
Educators
Kids
Researchers
Volunteers
Members
Fellows/Interns
Home
Museums and Zoo
Research Centers
Cultural Centers
Exhibitions
Events
Collections
Newsroom
Home » Office
of the Inspector General
Second Parking Lot Attendant Pleads Guilty to Stealing at Least $400,000 in Parking Fees from Smithsonian Museum
U.S. Attorney’s Office
November 2, 2012
Eastern District of Virginia
(703) 299-3700
Freweyni Mebrahtu, 45, of Sterling, Va., pled guilty yesterday to stealing at least $400,000 of visitor parking fees belonging to the Smithsonian Institution’s Steven F. Udvar-Hazy Center in Chantilly, Va.
Neil H. MacBride, United States Attorney for the Eastern District of Virginia; Scott S. Dahl, Inspector General for the Smithsonian Institution; and James W. McJunkin, Assistant Director in Charge of the FBI’s Washington Field Office, made the announcement after the plea was accepted by United States District Judge T. S. Ellis III.
The Nov. 1, 2012, plea follows Mebrahtu’s arrest on Aug. 4, 2012, by agents of the Smithsonian Office of Inspector General and FBI.  Mebrahtu faces a maximum penalty of 10 years in prison when she is sentenced on Jan. 18, 2013.
In a statement of facts filed with her plea agreement, Mebrahtu admitted that from March 2009 and continuing through July 2012, she was a full-time employee of Parking Management, Inc. (“PMI”) who worked as a booth attendant at the Steven F. Udvar-Hazy Center parking lot.  The Udvar-Hazy Center is the annex facility of the National Air and Space Museum and is home to the Space Shuttle Discovery and other historic aircraft.  The Air and Space Museum and Udvar-Hazy Center collectively display the largest collection of aircraft and spacecraft in the world.  PMI, under contract with the Smithsonian, has managed and operated the Udvar-Hazy Center’s 2,000-vehicle parking lot since March 2009.
In the statement of facts, Mebrahtu admits that since at least October 2009, she has stolen the $15 entrance fee from thousands of museum visitors.  Mebrahtu admitted to stealing using two methods.  First, she often reached under the counter in her attendant’s booth to unplug the electronic vehicle counter which was installed.  Second, after a visitor paid the entrance fee, Mebrahtu would not hand the customer a serialized parking ticket to display in the car’s windshield as proof of purchase.  By unplugging the vehicle counter and suppressing the number of tickets which were distributed, Mebrahtu was able to keep the entrance fees from all vehicles she had not reported as entering the parking lot.  Mebrahtu also admitted that she and other booth attendants discussed techniques for stealing parking revenues.  Further, Mebrahtu admitted that she paid a portion of her stolen proceeds to the location manager at the lot.
The statement of facts states that Mebrahtu stole thousands of dollars each week from the Smithsonian, and the three-year loss to the Smithsonian attributable to Mebrahtu is at least $400,000.  She is the second PMI attendant who worked at the parking lot to plead guilty to stealing from the Smithsonian as Meseret Terefe, 36, of Silver Spring, Md., pled guilty to the same charge on Sept. 28, 2012.
The investigation was initiated by the Smithsonian Office of the Inspector General and jointly investigated by the FBI’s Washington Field Office.  Assistant United States Attorney Jasmine Yoon and Special Assistant United States Attorney James McDonald are prosecuting the case on behalf of the United States.
A copy of this press release may be found on the website of the United States Attorney's Office for the Eastern District of Virginia at http://www.justice.gov/usao/vae  Related court documents and information may be found on the website of the District Court for the Eastern District of Virginia at http://www.vaed.uscourts.gov or on https://pcl.uscourts.gov
Mobile Site |
Contact Us |
FAQs |
About Us |
E-News |
Employment |
Site Map
Privacy |
Terms of Use |
Administration |
Governance |
Policies & Reports |
Accessibility
Records Requests |
Inspector General |
General Counsel |
Supplier Diversity and EEO
Page Last Modified: 12/3/2012